COSKLE

Est. 1923

2311 Douglas Street
Omaha, Nebraska 68102-1214

1-800-225-6964

(402) 342-2831
Fax: (402) 342-4850

No.

JAMES COURTNEY AND CLIFFORD COURTNEY,

Petitioners,
v.

DAVID DANNER, IN HIS OFFICIAL CAPACITY

AS CHAIRMAN AND COMMISSIONER OF
THE WASHINGTON UTILITIES AND
TRANSPORTATION COMMISSION, ET AL.,

Respondents.

CERTIFICATE OF COMPLIANCE

E-Mail Address:
contact@cocklelegalbriefs.com

Web Site
www.cocklelegalbriefs.com

As required by Supreme Court Rule 33.1(h), I certify that the PETITION FOR WRIT OF
CERTIORARI in the above entitled case complies with the typeface requirement of Supreme Court

Rule 33.1(b), being prepared in New Century Schoolbook 12 point for the text and 10 point for the

footnotes, and this brief contains 8981 words, excluding the parts that are exempted by Supreme

Court Rule 33.1(d), as needed.

Subscribed and sworn to before me this 14th day of September, 2020.
Tam duly authorized under the laws of the State of Nebraska to administer oaths.

GENERAL NOTARY-State of Nebraska Kons.
f RENEE J, GOSS 9.
My Comm. Exp. September 5, 2023

Notary Public

Oudraw-h, Qhele

Affiant

39822
